  August 28, 2003




Financial Management

Allegation of Improper
Accounting for Direct Billable
Hours by the Defense Finance
and Accounting Service
(D-2003-127)




      Office of the Inspector General
                   of the
          Department of Defense
                                   Constitution of
                                  the United States

    A Regular Statement and Account of the Receipts and Expenditures of all public
    Money shall be published from time to time.
                                                              Article I, Section 9
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

ABS                 Automated Billing System
AWC                 Automated Workcount
DBH                 Direct Billable Hour
DFAS                Defense Finance and Accounting Service
MIPR                Military Interdepartmental Purchase Request
OJCS                Office of the Joint Chiefs of Staff
PBD                 Program Budget Decision
RADSS               Resource Analysis Decision Support System
U.S.C.              United States Code
WHS                 Washington Headquarters Services
          Office of the Inspector General of the Department of Defense
Report No. D-2003-127                                                     August 28, 2003
   (Project No. D2002FI-0108)

       Allegation of Improper Accounting for Direct Billable Hours
             by the Defense Finance and Accounting Service

                                Executive Summary

Who Should Read This Report and Why? This report will be of interest to Defense
Finance and Accounting Service (DFAS) personnel who manage the billable hours
accounts and DFAS customers who pay for the hours billed. Actions taken as a result of
this report could ensure that customers are billed accurately and that changes to data used
to generate customer bills are adequately supported.

Background. The audit was initiated in response to an allegation to the Defense Hotline.
DFAS operates as a working capital fund entity. As such, DFAS recovers the costs of
providing services from the customers it serves. The costs DFAS will incur providing
accounting services, measured in direct billable hours, are initially projected as an
estimate. The customer then provides funding authority for DFAS to bill for services
rendered. Actual hours of labor are recorded and maintained in a database. Hours of
labor that exceed the estimate should be billed to the customer. The allegation stated that
DFAS management might have directed personnel to significantly reduce the billed
amount of direct billable hours reported for accounting services provided to the Army
during FY 2001. The allegation cited pressure from upper management to reduce
customers’ billable hours in order to maintain good customer relations. The allegation
also raised the possibility of violations of the Anti-Deficiency Act or other laws. The
DFAS Indianapolis Network performed more than 3.8 million in direct billable hours,
valued at about $253 million, during FY 2001.

Results. DFAS Indianapolis Resource Management personnel did not bill the Army for
the full cost of the services provided during FY 2001. DFAS Indianapolis Resource
Management personnel understated the hours billed by 83,113 hours for the Army and
824 hours for various other customers, thus reducing DFAS FY 2001 collectible revenue
by approximately $5.6 million. When the error was discovered, DFAS Indianapolis
Resource Management personnel decided not to bill the customers for the additional
revenue owed to DFAS. Also, not all adjustments to the billable hours accounts were
properly documented and approved. Formal policies and documented standard operating
procedures should help DFAS maintain tighter control over accounting for billable hours.
Because the Army has not reimbursed DFAS for the previously unbilled hours, the
FY 2003 billing rates for all DFAS Indianapolis customers were higher than they would
have been if resource management personnel had collected the $5.6 million in revenue
(see finding A). In our opinion, there was no violation of the Anti-Deficiency Act
(see Appendix B).

DFAS revenue was further reduced by $1.2 million in FYs 2001 and 2002 because
services provided to the Office of the Joint Chiefs of Staff during that period were not
reimbursed. According to personnel from the Office of the Under Secretary of Defense
(Comptroller)/Chief Financial Officer, funds were to be provided to Washington
Headquarters Services according to the Program Budget Decision 416 estimate and
should have included amounts for DFAS services to the Office of the Joint Chiefs of
Staff. However, neither Washington Headquarters Services, nor the Office of the Joint
Chiefs of Staff paid DFAS. As a result, DFAS did not collect approximately $661,000 in
FY 2001 revenue and $551,000 in FY 2002 revenue. Because DFAS did not receive
reimbursement for services provided to the Office of the Joint Chiefs of Staff, FY 2003
billing rates for all DFAS Indianapolis customers were higher than they would have been
if resource management personnel had collected the $1.2 million in revenue. In our
opinion, there was no violation of the Anti-Deficiency Act (see finding B).

Management Comments and Audit Response. The Director, Corporate Resources,
DFAS concurred with the recommendation that DFAS bill and collect the $5.5 million
from the Army. However, the Director, Finance and Accounting Oversight Directorate,
Office of the Assistant Secretary of the Army (Financial Management and Comptroller)
nonconcurred with the recommendation to pay DFAS for the accounting services because
the funds are being recouped through the FY 2003 billing rates. We agree that the
$5.5 million is being recouped through the FY 2003 billing rates. However, the
$5.5 million is being recouped from all DFAS Indianapolis Network customers, not just
the Army. The adjustment that DFAS will make to the FY 2005 billing rates for direct
billable hours for the Army and other customers will ensure that the Army, and not other
customers, pays for services received by the Army. Also, DFAS concurred with the
recommendation to develop and implement written standard operating procedures for the
workcount collection and billing process.

The Director, Corporate Resources, DFAS and the Director, Washington Headquarters
Services nonconcurred with the recommendation that DFAS bill and collect the
$1.2 million from Washington Headquarters Services for services provided to the Office
of the Joint Chiefs of Staff during FYs 2001 and 2002. The Director, Revolving Funds,
Office of the Under Secretary of Defense (Comptroller)/Chief Financial Officer stated
that although she believed Washington Headquarters Services had funds in its budget to
support the Office of the Joint Chiefs of Staff, it was not clear from historical budget
documents if either agency had funds in their budget to purchase these services.
Therefore, it cannot be determined which organization should reimburse DFAS. The
Director, Revolving Funds further stated that it was appropriate for DFAS to recoup the
loss through changes in FYs 2002 and 2003 rates. We also could not determine which
agency should reimburse DFAS. Consequently, we agree it was appropriate for DFAS to
recoup the loss through changes in FYs 2002 and 2003 rates.

The Director, Corporate Resources, DFAS nonconcurred with the recommendation that
DFAS establish written policy requiring suspension of services by DFAS to customers
that do not provide funding in a timely manner. As a result of the DFAS comments, we
revised Recommendation B.3. to clarify the intent of the recommendation. A written
policy should be developed for addressing issues when customers do not provide funding
for services rendered. Suspending services should be an option that can be applied on a
case-by-case basis. We request that DFAS consider the revised recommendation and
provide additional comments in response to the final report by October 27, 2003. See the
Finding section of the report for a discussion of management comments and the
Management Comments section of the report for the complete text of the comments.




                                           ii
Table of Contents

Executive Summary                                                        i

Background                                                               1

Objective                                                                3

Findings
     A. Validity of the Allegation                                       4
     B. Unfunded Workcounts                                             11

Appendixes
     A. Scope and Methodology                                           18
         Prior Coverage                                                 19
     B. Allegation and Results                                          20
     C. Report Distribution                                             21

Management Comments
     Defense Finance and Accounting Service                             23
     Washington Headquarters Services                                   26
     Department of the Army                                             27
     Under Secretary of Defense (Comptroller)/Chief Financial Officer   28
Background
           Allegation. The audit was initiated in response to an allegation referred to the
           Defense Hotline from the General Accounting Office FraudNet. The complainant
           alleged that Defense Finance and Accounting Service (DFAS) management might
           have directed personnel to reduce the billed amount of direct billable hours
           (DBHs) reported for accounting services provided to the Army by 122,000 hours.

           Role of DFAS. DFAS, an entity of the Defense Working Capital Fund, provides
           financial management services to its customers on a reimbursable or fee-for-
           service basis. DFAS employs a unit cost methodology to account for the cost of
           production and develops billing rates for customers. Acceptance of customer
           orders generates financial resources to replenish working capital and to permit
           continuing operations. DFAS Indianapolis Resource Management personnel
           (resource management personnel) are responsible for collecting and reporting
           DBHs and report to the DFAS Arlington Resource Management Directorate. The
           client executives for “Operating Forces” and “Sustaining Forces”1 serve as
           liaisons between DFAS Indianapolis and its customers. DFAS Indianapolis and
           its subordinate field accounting sites (the DFAS Indianapolis Network) were the
           primary providers of accounting services to the Army and various other Defense
           agency customers during FY 2001.

           DFAS Services. The services DFAS provides are categorized into outputs that
           represent functions such as military and civilian pay, travel pay, debt collection,
           foreign military sales, and accounting services. In FY 2001, resource
           management personnel billed DFAS Indianapolis Network customers for 13
           different outputs. The output for accounting services is referred to as Output 11 -
           Direct Billable Hours for Accounting Services. DFAS depends on the
           workcounts associated with each output for revenue. Accounting services include
           bookkeeping and preparation of various financial reports, including annual
           financial statements. The workcount for DBHs is based on direct productive
           civilian and military labor hours associated with performing accounting services.
           DFAS also uses workcounts to forecast resources needed to finance future
           operations and determine future billing rates for each output. The DFAS
           Indianapolis Network performed more than 3.8 million DBHs, valued at about
           $253 million, during FY 2001.

           Billing Rates. As a Defense Working Capital Fund entity, DFAS obtains funds
           to operate by billing its customers for the services it provides. As such, DFAS
           establishes billing rates that are estimated to recover the cost of providing the
           services. Once established, billing rates are stabilized for each applicable fiscal
           year. Stabilized billing rates protect appropriated fund customers from
           unforeseen cost changes, enabling customers to more accurately plan and budget.
           Gains or losses in operations may occur as a result of variations in program
           execution. Realized gains and losses are generally reflected in offsetting
           adjustments to rates established in subsequent fiscal years. For example, any
           gains or losses realized in FY 2001 were reflected in the billing rates established
           for FY 2003. DFAS


1
    In late 2002, Operating Forces and Sustaining Forces were reorganized into one organization, Accounting
    Services, Army.



                                                      1
established a separate rate for each of the Military Departments and a separate
rate for Defense agencies. The FY 2001 DBH billing rates that DFAS established
for the Army and Defense agencies were $66.21 and $69.56, respectively.

Workcount Collection and Billing. A workcount is a standard unit of measure
for a specific output—in this case DBHs of accounting services. During FY 2001,
the DFAS Indianapolis Network employees recorded their hours worked in the
Automated Time, Attendance, and Production System, which fed into the
Resource Analysis Decision Support System (RADSS), the official record of total
direct productive hours. Because RADSS did not allocate DBHs to specific
customers’ accounts, employees used a web-based system, the Direct Billable
Hours System, to allocate DBHs to specific customers’ accounts. Three to 4 days
after the end of each month, resource management personnel compared the total
hours recorded in the Direct Billable Hours system to the total direct productive
hours recorded in RADSS. The difference between the two totals represented
direct hours not assigned to specific customers that resource management
personnel proportionally distributed among all customers before entering the
DBH workload data in the Automated Workcount (AWC) System, the DFAS
agency-wide repository for workcount data. The AWC System electronically
transferred the data to the Automated Billing System (ABS) for billing. ABS, a
module of the Defense Business Management System, produced the actual
customer bills and posted accounting entries to the accounting module of the
Defense Business Management System. E-Biz is a new integrated management
information system that is scheduled during FY 2003 to replace the workcount
collection and billing processes in place during the audit. Finding A contains
further information concerning the e-Biz system.

Billing Process. In FY 2001, resource management personnel billed customers
mid-month based on estimates for the workload to be performed during the
month. Resource management personnel developed the estimates using the
previous month’s actual data, adjusted for the number of working days in the
current month and any known changes expected to occur, such as holidays.
Resource management personnel entered the estimates in the AWC System
around the 10th of each month. When actual workload data became available the
following month, they reversed the estimates, entered the actual data, and
prepared revised bills to adjust for differences between the estimates previously
billed and the actual workload performed.

United States Code Requirements. Section 2208, title 10, United States Code
(10 U.S.C. 2208), states that working capital fund entities, such as DFAS, shall be
reimbursed for services rendered. The rates the DFAS Indianapolis Network
charges for services provided for an entity should include amounts necessary to
recover the full costs of the services provided for that entity. Section 1342,
title 31, United States Code (31 U.S.C. 1342), the voluntary services prohibition,
provides that an officer or employee of the United States Government may not
accept voluntary services or employ personal services exceeding that authorized
by law except for emergencies involving the safety of human life. Also,
31 U.S.C. 1301(a), the augmentation provision, prohibits the use of an
appropriation for purposes other than those for which the funds were specifically
appropriated.



                                     2
Objective

    The objective of our audit was to determine the validity of a Defense Hotline
    allegation concerning adjustments to DBHs for accounting services provided by
    DFAS. During the audit, we also noted the DFAS Indianapolis Network was not
    being reimbursed for accounting services provided to the Office of the Joint
    Chiefs of Staff (OJCS) and reported the issue in finding B. See Appendix A for a
    complete discussion of the audit scope and methodology.




                                        3
                    A. Validity of the Allegation
                    The allegation that resource management personnel knowingly
                    understated the number of direct billable hours for accounting services
                    provided to the Army during FY 2001 was valid. DFAS made downward
                    net adjustments of 108,750 DBHs2 to FY 2001 billable hours accounts—
                    83,113 DBHs accrued providing services to the Army, and another
                    824 DBHs accrued for services provided to various other customers.
                    Further, the adjustments made to the billable hours accounts were not
                    always properly approved or documented. The adjustments to the Army
                    and other customers’ billable hours accounts were made because DFAS
                    officials did not want to change customer bills to reflect information
                    resource management personnel became aware of at the end of FY 2001.
                    Inadequate documentation of the adjustments, including lack of written
                    approvals, occurred because of a management control weakness evidenced
                    by the absence of documented standard operating procedures for the
                    billing and adjustment process. As a result of making the improper
                    adjustments, resource management personnel did not collect
                    approximately $5.6 million in revenue, which subsequently caused
                    FY 2003 billing rates for all DFAS Indianapolis Network customers to be
                    higher than they would have been if resource management personnel had
                    collected the $5.6 million in revenue.


Reductions in Direct Billable Hours

           Table 1 identifies the types of adjustments made during FY 2001 by resource
           management personnel and the associated dollar values of the adjustments.

                             Table 1. DBH Adjustments for FY 2001
                  Adjustment Type            Workcount                                   Value
           Directed Adjustments for:
             Operations and Maintenance,
               Army                            83,113                                   $5,502,912
             Various Customers                    824                                       57,680
               Directed Adjustment Total                    83,937                       5,560,592

           Unbillable Adjustment                            24,813                 Not Applicable
                       Total                              108,750                       $5,560,592

2
    This number includes 24,813 hours that were appropriately adjusted because they represent accounting
     services performed for DFAS. However, this number does not include 287 adjusted hours that, owing to
     lack of documentation, could not be reconciled to specific customer accounts.




                                                     4
    Operations and Maintenance, Army Adjustments. Resource management
    personnel made downward net adjustments totaling 83,113 hours to the
    workcount data for the Operations and Maintenance, Army appropriation, one of
    approximately 20 Army customers purchasing DBHs from the DFAS Indianapolis
    Network, and the largest of all the DFAS Indianapolis Network customers in
    FY 2001. Seventy-six percent of DBHs performed by the DFAS Indianapolis
    Network during FY 2001 related to the Operations and Maintenance, Army
    appropriation. The downward adjustments resulted in a loss of $5,502,912 in
    revenue for the DFAS Indianapolis Network (83,113 DBHs times the Army
    billing rate of $66.21 per DBH). In addition, the revenue loss resulted in
    increased FY 2003 billing rates for all DFAS Indianapolis Network customers.
    Resource management personnel should bill, and the Army should pay,
    $5.5 million for 83,113 DBHs performed in FY 2001 but not billed.

    Other Customer Adjustments. Resource management personnel also adjusted
    downward the accounts of 25 other customers by 824 hours, totaling $57,680.
    Five of the 25 other customers’ accounts made up 80 percent of the dollars and
    hours of the adjustments. The $57,680 is insignificant compared to the
    $253 million of total DBHs performed by the DFAS Indianapolis Network during
    FY 2001. Therefore, we are not recommending that resource management
    personnel bill the 25 customers for the 824 DBHs.

    Unbillable Adjustments. Resource management personnel appropriately
    removed from the RADSS official DBH total the 24,813 hours of work that the
    DFAS Indianapolis Network performed for DFAS. These unbilled hours
    consisted of work performed for bookkeeping and preparation of various financial
    reports, including annual financial statements and other accounting services.
    However, resource management personnel did not maintain adequate
    documentation to support the removal of DBHs for work performed for DFAS.
    Resource management personnel should continue to remove hours for DBHs
    performed for DFAS from the RADSS official DBH total, but should maintain
    adequate documentation to support the DBHs removed.


Reason for Inappropriate Adjustments

    Some specific circumstances contributed to the decision to bill customers less
    than the actual FY 2001 DBH totals. First, resource management personnel
    experienced problems with an Excel spreadsheet-based tool used to collect DBH
    data when implementing a new web-based DBH data collection system, the
    Direct Billable Hours System. Coincidentally, resource management personnel
    had created a process action team to review the allocation methodology for DBHs
    not identified to a specific customer. The review resulted in the development of a
    new methodology. The discovery of the difference between the estimates and the
    DBHs actually performed was not made until late September 2001, after resource
    management personnel provided a final year-end bill estimate to the Army in
    early September 2001. Therefore, DFAS management decided not to bill the
    Army for actual workcounts that were different than the year-end estimate, and
    adjusted the DBH totals instead.




                                        5
Workcount Collection. At the beginning of FY 2001, resource management
personnel used an Excel spreadsheet-based tool to collect DBH data. Resource
management personnel experienced problems with the spreadsheet-based tool in
May 2001 when the new online Direct Billable Hours System was implemented.
As a result, for at least 5 months during FY 2001, the AWC System contained
only estimates of workcounts because resource management personnel did not
have reliable actual workload numbers. In late September 2001, once resource
management personnel corrected the problem with the Excel spreadsheet-based
tool, they realized that the previously billed estimates were less than the actual
hours performed and concluded that the year-end estimate provided to the Army
in early September 2001 was understated.

Allocation Methodology. In June 2001, as a result of complaints from Defense
agency customers concerning the allocation methodology for DBHs not identified
to a specific customer, resource management personnel created a process action
team to review the methodology. The team recommended a new methodology for
distributing hours to Defense agency customers be implemented retroactive to
May 2001. However, resource management personnel did not identify the effect
of the team’s recommendations until late September 2001.

Decision Not to Bill Additional Hours. Resource management personnel
informed us that the Director, DFAS Indianapolis Resource Management, with
concurrence from the Operating and Sustaining Forces client executives and the
Director, DFAS Arlington Resource Management, directed the downward
adjustments of 83,937 DBHs for FY 2001 to account for the 83,937 unbilled
hours. Resource management personnel had already provided the Army with a
final FY 2001 year-end estimate of $566 million when they discovered the effect
of the problems with the Excel spreadsheet-based tool and the new allocation
methodology. Because resource management personnel had already provided the
Army with a final year-end estimate, they did not want to go to the Army and
request additional funds to cover the understatement of 83,113 DBHs, valued at
about $5.5 million. Resource management personnel made the decision despite
the fact that the revised amount was still less than the $594 million estimate that
they had provided the Army at the beginning of FY 2001. Resource management
personnel also chose not to bill 25 other customers for 824 unbilled hours.
Soon after the understatement was discovered, resource management personnel
should have billed the Army for the 83,113 hours and the 25 other customers for
the 824 hours. We believe that it is still important for the Army to pay for the full
amount due for accounting services performed during FY 2001. However, due to
the relative insignificance of the value of the 824 hours ($57,680) not billed to
various other customers and the potential cost involved with billing and collecting
from 25 customers, we are not recommending that resource management
personnel bill for the 824 billable hours. In addition, the decision to make
83,937 hours of inappropriate adjustments did not violate the voluntary services
provision of the Anti-Deficiency Act (31 U.S.C. 1342). See Appendix B for a
more detailed discussion concerning the Anti-Deficiency Act conclusion.




                                      6
Manual Intervention, Audit Trails, and Standard Operating
 Procedures
    The processes used by resource management personnel to collect and bill for
    DBHs involved significant manual intervention, lacked adequate audit trails and
    documentation to support adjustments, and were not documented in written
    standard operating procedures.

    Manual Intervention. Resource management personnel manually intervened in
    the workcount collection processes when:

           •   performing the comparison of RADSS and DBH workcount data,

           •   distributing DBHs not identified to specific customers,

           •   entering and reversing the monthly accruals in the AWC System,

           •   uploading the monthly actual data into the AWC System, and

           •   entering adjustments into the AWC System.

    The significant manual intervention subjected the data to a high risk of errors and
    inaccuracies. DFAS should also ensure that when fully implemented, e-Biz
    minimizes manual intervention in the DBH collection processes.

    Audit Trails. The workcount collection and billing processes also lacked
    adequate audit trails and documentation to support adjustments. Resource
    management personnel made the adjustments based on verbal guidance from
    management, and they did not have readily available documentation to support
    the adjustments or any written approvals for making the adjustments. Resource
    management personnel had to search personal files for documents to support the
    adjustments. The few documents provided to us were difficult to follow and
    required extensive verbal explanations to enable the auditors to piece together
    what resource management personnel had done. The lack of adequate audit trails
    and documentation subjected the data to a high risk of errors and inaccuracies.
    DFAS should ensure that e-Biz maintains adequate audit trails and documentation
    for the DBH collection and billing processes.

    Standard Operating Procedures. Resource management personnel had not
    documented the workcount collection and billing processes in standard operating
    procedures. Newly assigned personnel had to learn the procedures based on
    verbal explanations or trial and error. Written guidance was not available to assist
    new personnel in learning their new duties or resolving problems when they
    occurred. Reductions in resource management staff make it more important than
    ever that the workcount collection and billing processes be documented to ensure
    accurate customer bills.




                                         7
E-Biz Implementation

    DFAS will change its process of collecting and distributing DBHs with the
    implementation of e-Biz. E-Biz is a new, web-based, fully integrated
    management information system that will integrate the financial management and
    the time and labor reporting functions. E-Biz will completely replace the billing
    and workcount collection processes previously described and other DFAS
    business processes. E-Biz will be implemented in the following four phases:

           •   Phase I–timekeeping;

           •   Phase II–budget execution, purchasing, and payables;

           •   Phase III–project cost accounting, accounts receivable, workcounts,
               and cost allocation; and

           •   Phase IV–budget formulation, manpower, and performance
               measurement.

    Resource management personnel anticipate that e-Biz will streamline and
    automate manual processes, deliver timely and accurate information, and enable a
    clear understanding of costs. Resource management personnel also stated that,
    when e-Biz is implemented, manual intervention in the processing of DBHs and
    customer bills will become the exception rather than the norm. Resource
    management personnel will have the ability to make manual adjustments in e-Biz.
    However, if a manual adjustment is made, e-Biz will place the user name on the
    adjustment and flag the transaction as an adjustment. Also, when e-Biz is fully
    implemented there will be no proportional distribution of hours to customers; the
    hours charged by DFAS employees will all be billed directly to customers.

    DFAS has already implemented Phases I and II. Phases III and IV were
    scheduled to be implemented in February and April 2003, respectively. However,
    on July 31, 2003, we were informed that Phases III and IV had slipped and would
    be implemented in October 2003. Since Phase III, which includes workcounts,
    will not begin implementation until October 2003, we were unable to determine
    whether e-Biz will provide adequate audit trails for DBH data and any changes
    made to the data. Therefore, DFAS should ensure that standard operating
    procedures developed for the current process are updated when e-Biz is
    implemented.


Conclusions

    The adjustments resource management personnel made resulted in a revenue loss
    of approximately $5.6 million for DFAS. The revenue loss will impact DFAS
    Indianapolis Network customers through higher than necessary billing rates for
    FY 2003. To ensure the most equitable recovery of the lost revenue, resource
    management personnel should bill the Army for the 83,113 DBHs (totaling


                                        8
    $5.5 million) for accounting services provided during FY 2001. We do not
    believe resource management personnel need to bill for the 824 unbilled hours
    because of the cost to bill and collect from the 25 customers and the
    insignificance of the amount.

    DFAS also needs to ensure that e-Biz has adequate audit trails and provides
    adequate documentation to support adjustments made to the data, and that any
    adjustments are approved at an appropriate supervisory level. In addition, written
    standard operating procedures should be developed for the e-Biz process when
    implemented. If adjustments to customer bills are necessary before the full
    implementation of e-Biz, resource management personnel need to establish audit
    trail requirements, documentation requirements, supervisory review requirements
    and written standard operating procedures for the current workcount collection
    and billing process.


Recommendations, Management Comments, and Audit
  Response
    A.1. We recommend that the Director, Accounting Services, Army, Defense
    Finance and Accounting Service Indianapolis:

            a. Bill and collect the $5.5 million from the Army for unbilled direct
    billable hours for FY 2001.

          b. Establish requirements for audit trails, documentation to support
    adjustments, and supervisory reviews in written standard operating
    procedures for the workcount collection and billing process. Update the
    standard operating procedures upon implementation of e-Biz.

    Management Comments. The Director, Corporate Resources, DFAS concurred
    and stated that, based on guidance from the Office of the Under Secretary of
    Defense (Comptroller)/Chief Financial Officer, DFAS will adjust the FY 2005
    billing rates for DBHs to recoup the portion of the $5.5 million that was not
    allocated to the Army in the FY 2003 billing rates. DFAS will also reduce the
    FY 2005 billing rates for DBHs of those agencies affected by the $5.5 million
    loss. In addition, the Director, Corporate Resources concurred with
    Recommendation A.1.b. and stated that DFAS is developing an agency-wide
    standard operating procedure that will formalize the currently informal practice of
    collecting, allocating, and billing DBHs. The standard operating procedure will
    also specify that appropriate audit trails are maintained to reflect the reasons and
    justifications for adjustments to customer billings when such adjustments become
    necessary.

    A.2. We recommend that the Assistant Secretary of the Army (Financial
    Management and Comptroller) pay the $5.5 million to the Defense Finance
    and Accounting Service for services provided during FY 2001.

    Management Comments. The Director, Finance and Accounting Oversight
    Directorate, Assistant Secretary of the Army (Financial Management and
    Comptroller) nonconcurred and stated that the $5.5 million is being recouped
    through the FY 2003 billing rates for DBHs.


                                         9
Audit Response. The Army comments are not responsive. We agree that the
$5.5 million is being recouped through the FY 2003 billing rates. However, the
$5.5 million is being recouped from all DFAS Indianapolis Network customers,
not just the Army. The adjustment that DFAS will make to the FY 2005 billing
rates for DBHs for both the Army and other customers will ensure that the Army,
and not other customers, pay for services received by the Army.




                                   10
                   B. Unfunded Workcounts
                   The DFAS Indianapolis Network provided $1.2 million in services to the
                   Office of the Joint Chiefs of Staff (OJCS) during FYs 2001 and 2002
                   without reimbursement. According to personnel from the Office of the
                   Under Secretary of Defense (Comptroller)/Chief Financial Officer, funds
                   were to be provided to Washington Headquarters Services according to
                   the Program Budget Decision (PBD) 416 estimate and should have
                   included amounts for DFAS services to the Office of the Joint Chiefs of
                   Staff. However, WHS did not provide any funding authority to the DFAS
                   Indianapolis Network on behalf of OJCS due to a disagreement as to who
                   was responsible for the cost of services provided by the DFAS
                   Indianapolis Network to OJCS. As a result, resource management
                   personnel did not collect approximately $661,000 in FY 2001 revenue and
                   approximately $551,000 in FY 2002 revenue. The lost revenue caused
                   FY 2003 billing rates for all DFAS Indianapolis Network customers to be
                   higher than they would have been if resource management personnel had
                   collected the funds from WHS to cover the cost of services rendered to
                   OJCS.

Workcount Estimation, Suspension, and Write-Offs

          Program Budget Decisions. The annual process for estimating and budgeting
          for DFAS Indianapolis Network services is embodied, among other places, in the
          PBD 416, “Defense Financial Operations,” and PBD 426, “Cost of Operations
          and Customer Prices for the Defense Working Capital Funds and Other Revolving
          Funds.” PBD 416 contains estimates of the workload that DFAS Indianapolis
          Network personnel anticipate performing for each customer, and PBD 426
          contains estimates of the cost of services based on the workcount estimate in
          PBD 416. Each year the Under Secretary of Defense (Comptroller)/Chief
          Financial Officer approves both PBD 416 and PBD 426. PBD 416 and PBD 426
          are designed to forecast workload and rates two years in advance. For example,
          the PBD 416, dated December 2000, provided workload estimates for FYs 2001
          and 2002. PBD 416 specifically states that it is only an estimate, and customers
          must fund DFAS for the cost of all services provided, which is consistent with
          guidance in DoD Regulation 7000.14-R, volume 11B, chapter 61, “Progress
          Billings, Reimbursements, and Revenue Recognition,” December 1994.3
          Suspended Workcounts. DFAS Indianapolis Network customers normally
          provide funding for services by using a Military Interdepartmental Purchase
          Request (MIPR). ABS calculates customer bills based on workcounts and
          generates a standard form 1080, “Voucher for Transfer Between Appropriations
          and/or Funds.” The ABS billing process (discussed in finding A) is automatic,
          but ABS cannot generate the transfer until the customer provides a MIPR
          authorizing the transfer of funds to resource management. ABS automatically


3
    DoD Regulation 7000.14-R, volume 11B, chapter 61, “Progress Billings, Reimbursements, and Revenue
    Recognition,” was updated in October 2002 and renumbered as chapter 11.



                                                   11
    suspends workcounts if funds are not available for transfer. We identified
    suspended workcounts, valued at approximately $1.2 million, for OJCS.

    Workcount Write-Offs. Resource management personnel attempt to obtain
    funds from customers when workcounts are suspended due to lack of funding.
    When these attempts are unsuccessful, resource management personnel write off
    the workcounts from ABS and no longer report the workcounts as suspended.


Analysis of Unfunded Workcounts

    OJCS did not provide funding for services performed by the DFAS Indianapolis
    Network during FYs 2001 and 2002 because of a disagreement with WHS
    (Washington Headquarters Services) regarding who was responsible for providing
    the funds. As far back as 1993, funding for OJCS was provided to WHS to cover
    the cost of accounting services for OJCS. PBD 416 for FY 2001 included the
    estimated workload for OJCS in the WHS total estimate. According to personnel
    from the Office of the Under Secretary of Defense (Comptroller)/Chief Financial
    Officer, funds were supplied to WHS according to the PBD 416 estimate and
    included amounts for DFAS Indianapolis Network services to OJCS.

    Since at least 1995, WHS objected to the responsibility of paying for DFAS
    services provided to OJCS due to the burden the extra funds placed on their
    annual budget submitted to Congress. WHS cited DoD Regulation 7000.14-R,
    volume 11B, chapter 50, “Defense Working Capital Fund General Policies and
    Requirements,” as support for their position. DoD Regulation 7000.14-R,
    volume 11B, chapter 50, states that each customer is responsible for reimbursing
    Defense Working Capital Fund activities for services performed for them.
    Beginning in FY 2001, after many unsuccessful discussions with OJCS and
    memorandums to the Under Secretary of Defense (Comptroller)/Chief Financial
    Officer, WHS discontinued making payments to resource management for
    services performed for OJCS. However, DFAS Indianapolis Network personnel
    continued to perform services throughout FYs 2001 and 2002 for OJCS without a
    funding document. OJCS did not pay for services received because OJCS
    contended that the funds for the services provided by the DFAS Indianapolis
    Network personnel were included in the funding the Under Secretary of Defense
    (Comptroller)/Chief Financial Officer provided to WHS.

    DFAS wrote off $661,000 in September 2002 for FY 2001 accounting services
    and $551,000 in March 2003 for FY 2002 accounting services provided to OJCS.
    Table 2 shows the costs associated with the workload the DFAS Indianapolis
    Network personnel performed for OJCS during FYs 2001 and 2002. To ensure
    the most equitable method of recovering the lost revenue, WHS should pay the
    $1.2 million for the unfunded workcounts performed by the DFAS Indianapolis
    Network.




                                        12
    Table 2. Costs Associated with Unfunded Workcounts Performed
 by the DFAS Indianapolis Network for OJCS During FYs 2001 and 2002
               Output                       FY 2001          FY 2002
Output 7-Travel Vouchers Paid               $ 2,347          $ 2,039
Output 8-Transportation Bills Paid               547              143
Output 9-Commercial Payments                  82,981           98,360
Output 11-Direct Billable Hours for          558,219          439,575
 Accounting Services
Output 27-Travel Vouchers Paid –              17,369           10,599
 Defense Travel System
   Total                                         $661,463              $550,716


DoD Regulation 7000.14-R, volume 11B, chapter 61,”Progress Billings,
Reimbursements, and Revenue Recognition,” stated that no work or service
should be performed except on the basis of reimbursable orders received and
accepted that constitute obligations of Federal Government ordering activities.
The MIPR and subsequent acceptance by resource management personnel serve
to obligate the funds of an entity. To avoid the consequences of a customer
disagreement in the future, and to comply with the requirements set forth in DoD
Regulation 7000.14-R, volume 11B, DFAS needs to establish and disseminate
written policy addressing instances when customers do not pay for services
provided. The policy should include the option to discontinue providing services
to customers on a case-by-case basis, if needed. The failure of resource
management personnel to collect the revenue for the suspended workcounts
caused an increase in FY 2003 billing rates for all DFAS Indianapolis Network
customers. DFAS should not provide services to customers who do not provide
funding in a timely manner.

The effect of the resource management decision to write off workcounts valued at
approximately $1.2 million for FYs 2001 and 2002 for services provided to OJCS
was to improperly augment, through provision of free services, the FYs 2001 and
2002 appropriations that were supposed to fund the expense for accounting
services. The General Accounting Office has generally distinguished between the
improper augmentation of an appropriation through the direct receipt of money as
opposed to through the receipt of services, analyzing the former under the
augmentation prohibition (31 U.S.C. 1301[a]) and the latter under the voluntary
services prohibition (31 U.S.C. 1342). See Appendix B for further details
regarding the requirements of section 1342. Since the issue involved gratuitous
services rendered in an official capacity, and, therefore, could not have formed the
basis for a future claim of payment upon Congress or the government, the
decision to write-off the approximately $1.2 million did not violate the voluntary
services prohibition of the Anti-Deficiency Act (31 U.S.C. 1342).




                                    13
Other Matters of Interest
     During our audit, we identified seven additional customers who had suspended
     workcount balances from FY 2001. Over the course of FY 2001, the cost of
     services provided by the DFAS Indianapolis Network exceeded the funds
     available for transfer. However, by the end of FY 2002, all seven of the
     customers had provided MIPRs authorizing the transfer of additional funds.
     Subsequently, resource management personnel had removed the suspended
     workcount balances from ABS for the seven customers.


Management Comments on the Finding and Audit Response
     WHS Comments. The Director, WHS indicated that the report incorrectly stated
     that PBDs 416 and 426 showed that WHS received funding to reimburse DFAS
     for services provided to OJCS during FYs 2001 and 2002. He stated that
     PBD 426 did not “provide” funding to WHS for the purpose of reimbursing
     DFAS on behalf of OJCS. The Director, WHS, also stated that WHS funding
     levels are set by PBD 071 and may be increased or decreased by other
     subject-specific decisions. He indicated that because DFAS Indianapolis
     Resource Management personnel billed OJCS directly, WHS did not establish
     reserves for payments to DFAS Indianapolis Resource Management on behalf of
     OJCS. The Director, WHS also stated that the report did not point out that OJCS
     has not followed long-established DoD budgetary policy for revolving funds,
     which requires that DFAS customers ensure that their budget submissions support
     all proposed DFAS purchases.

     Under Secretary of Defense (Comptroller)/Chief Financial Officer
     Comments. Although not required to comment, the Director, Revolving Funds,
     Under Secretary of Defense (Comptroller)/Chief Financial Officer stated that
     OJCS did not pay the $1.2 million for services rendered by DFAS because there
     was confusion about who should have paid for the services. The Director stated
     that it was past practice for the WHS to budget and pay for the services provided
     by DFAS to OJCS. The Director stated that she believes WHS had the funds in
     their budget to support OJCS, but that it is not clear from historical budget
     documents if either agency had funds in their budget to purchase the services.
     The Director, Revolving Funds concluded that it cannot be determined which
     organization should reimburse DFAS and that it is appropriate for DFAS to
     recoup the loss through its rates. She stated that further action is not needed
     because the loss has been recouped through increased FY 2002 and 2003 rates. In
     addition, the Director, Revolving Funds stated that starting in FY 2003, OJCS is
     identified as a separate customer by DFAS and funds the services provided by
     DFAS accordingly.

     Audit Response. We agree that the report incorrectly stated that PBD 416 shows
     that WHS “received” funding to reimburse the DFAS Indianapolis Network. We
     have clarified the language in the finding to indicate that, according to personnel
     at the Office of the Under Secretary of Defense (Comptroller)/Chief Financial
     Officer, funds were to be provided to DFAS Indianapolis Network customers
     based on the estimates in PBD 416. However, we do not agree that DFAS


                                         14
    Indianapolis Resource Management personnel billed OJCS directly. As
    previously stated, the ABS billing process is automatic, but ABS cannot generate
    the transfer of funds (i.e., generate the bill) until the customer provides a MIPR
    authorizing the transfer to resource management. ABS automatically suspends
    workcounts if funds are not available for transfer. A MIPR was not provided to
    DFAS Indianapolis for the accounting services rendered to OJCS during
    FYs 2001 and 2002. Therefore, DFAS could not generate a bill for the services
    so they suspended the workcounts. We agree that DFAS should be paid for the
    services provided to OJCS. We believe that PBD 416 clearly intended for WHS
    to receive the funding to pay DFAS for services provided to OJCS during
    FYs 2001 and 2002. However, neither the Office of the Under Secretary of
    Defense (Comptroller)/Chief Financial Officer, WHS nor OJCS were able to
    provide funding documents to unequivocally show which agency actually
    received the funds to pay DFAS. Therefore, it is appropriate for DFAS to recoup
    the loss through changes in FYs 2002 and 2003 rates.


Recommendations, Management Comments, and Audit
  Response
    Revised Recommendation. As a result of management comments, we revised
    draft Recommendation B.3. to clarify that the written policy should be a
    formalization of the currently informal process and that suspension of services for
    lack of payment should be an option, not an automatic action.

    B.1. We recommend that the Director, Accounting Services, Army, Defense
    Finance and Accounting Service Indianapolis bill and collect the $1.2 million
    from Washington Headquarters Services for services provided to the Office
    of the Joint Chiefs of Staff during FYs 2001 and 2002.

    Management Comments. Although not required to comment, the Director,
    Revolving Funds, Office of the Under Secretary of Defense (Comptroller)/Chief
    Financial Officer provided comments stating that it is not clear if either WHS or
    OJCS received adequate funding to pay for the services DFAS provided to OJCS
    during FYs 2001 and 2002. The Director, Corporate Resources, DFAS
    nonconcurred and agreed with the position taken by the Office of the Under
    Secretary of Defense (Comptroller)/Chief Financial Officer that it cannot be
    determined which organization should reimburse DFAS. She stated that the
    $1.2 million loss has already been incorporated into the FY 2003 billing rates for
    DBHs. The Director, Corporate Resources also stated that DFAS, WHS, and
    OJCS have taken action to ensure payment for DBHs in the future.

    Audit Response. While not the ideal solution, we agree with the Director,
    Revolving Funds, Office of the Under Secretary of Defense (Comptroller)/Chief
    Financial Officer that it cannot be determined which organization should
    reimburse DFAS. We also agree that it is appropriate for DFAS to recoup the
    loss through its rates. Further action is not needed because the loss is being
    recouped through increased FYs 2002 and 2003 rates.

    B.2. We recommend that the Director, Washington Headquarters Services
    pay the Defense Finance and Accounting Service for services provided to the
    Office of the Joint Chiefs of Staff during FYs 2001 and 2002.


                                        15
Management Comments. The Director, WHS nonconcurred and stated that
WHS should only be fiscally responsible for DFAS products and services actually
received by WHS.

Audit Response. WHS comments are not responsive. However, we agree with
the Director, Revolving Funds, Office of the Under Secretary of Defense
(Comptroller)/Chief Financial Officer that it cannot be clearly determined which
organization should reimburse DFAS and that it is appropriate for DFAS to
recoup the loss through its rates. Further action is not needed because the loss
was recouped through increased FYs 2002 and 2003 rates.

B.3. We recommend that the Director, Defense Finance and Accounting
Service establish and disseminate a written policy addressing instances when
customers do not pay for services provided. Include the option to
discontinue providing services to customers on a case-by-case basis, if
needed.

Management Comments. The Director, Corporate Resources, DFAS
nonconcurred and stated that DFAS management had discussed developing a
policy in which service would be suspended pending receipt of funding.
However, because the DFAS services fund the pay and logistical needs of the
U.S. fighting forces, DFAS believes an interruption in service for non-payment is
unacceptable because the potential negative impacts on U.S. fighting forces far
exceed any benefits that could result from service interruption. She stated that
failure to process or pay commercial transactions would only lead to interest
penalties, and thus cause the customer’s bill for services to increase.

The Director, Corporate Resources also stated that there is already a process in
place to record and collect those monies. The process includes DFAS classifying
workcounts performed for a customer in excess of funding as suspended
workcounts. If, at the end of the fiscal year, a customer has suspended
workcounts, DFAS works closely with the Office of the Under Secretary of
Defense (Comptroller)/Chief Financial Officer to seek final resolution with the
customer.

Audit Response. The DFAS comments are partially responsive. Although we
agree that a process is in place to record unpaid workcounts and collect the funds
for those workcounts, the process is informal and, as evidenced by the failure to
resolve issues related to uncompensated services provided to OJCS during
FYs 2001and 2002, the option to discontinue services to achieve a timely
resolution is sometimes warranted. We do not advocate the suspension of
services that would adversely impact the U.S. fighting forces. However, the
suspension of accounting services may be appropriate under certain
circumstances. Therefore, we revised the recommendation to clarify that the
current informal process should be formalized in written policy.




                                    16
The policy should at least include suspension of services as an option, not
necessarily an automatic action, which can be applied on a case-by-case basis.
We request that DFAS consider the revised recommendation and provide
additional comments in response to the final report.




                                    17
Appendix A. Scope and Methodology
   The DFAS Indianapolis Network performed more than 3.8 million DBHs, valued
   at about $253 million during FY 2001. The Defense Hotline complaint alleged
   that a high level DFAS official might have directed resource management
   personnel to reduce the Army’s bill for accounting services received during
   FY 2001 by 122,000 DBHs.

   We traced the processes from start to finish that resource management personnel
   used to record, collect, report, and bill DBHs. We identified all relevant
   procedures and systems used and their role in the DBH process through document
   examination and interviews with key resource management personnel. We also
   reviewed FY 2001 DBH workcount data from the various systems used in the
   processes.

   We reviewed the statement provided by the complainant and met with the
   complainant to clarify issues relating to the allegation. We reviewed applicable
   laws, regulations, policies, and procedures relating to recording, collecting,
   reporting and billing for DBHs. We also obtained a detailed walkthrough of the
   processes by interviewing appropriate resource management personnel. Due to
   the lack of adequate documentation supporting and authorizing the adjustments
   made to DBHs, much of the information regarding the reasons for and approvals
   of the adjustments was obtained through interviews with resource management
   personnel involved in the DBH recording, collecting, reporting, and billing
   processes. We obtained and reviewed budgeting documents relating to DBHs.
   During the audit, we also noted that other customers were not promptly paying for
   DFAS services and we followed up on the reasons for this problem.

   We performed this audit from March 2002 through March 2003 in accordance
   with generally accepted government auditing standards. We did not review the
   management control program because the audit was performed in response to an
   allegation made to the Defense Hotline and the scope was limited to the specific
   allegation. Therefore, review of the management control program was not an
   announced audit objective and we did not look at enough of the process to form
   conclusions about the management control program.

   Use of Computer-Processed Data. We did not evaluate the general and
   application controls of the DFAS systems (DBH System, RADSS, the AWC
   System, and ABS) used to process direct billable hours data, although we relied
   on data produced by these systems to conduct the audit. Not evaluating controls
   did not affect the results of the audit. We performed alternative testing to
   establish data reliability by tracing sampled data from system to system through
   the processes for recording, collecting, reporting, and billing DBHs.

   General Accounting Office High-Risk Area. The General Accounting Office
   has identified several high-risk areas in DoD. This report provides coverage of
   the DoD Financial Management high-risk area.




                                       18
Prior Coverage

    No prior coverage has been conducted on the subject during the last 5 years.




                                        19
Appendix B. Allegation and Results
   Allegation. In February 2002, the Office of the Assistant Inspector General for
   Auditing received an allegation from the Defense Hotline stating that a high level
   DFAS official might have directed resource management personnel to reduce the
   Army’s bill for accounting services in FY 2001 by 122,000 DBHs. The allegation
   stated that the downward adjustment would have reduced the billable amount of
   accounting services provided to the Army by more than $7 million. The
   complainant speculated that changes in the internal accounting systems for
   collecting and reporting workcounts apparently rendered previous estimates to the
   Army invalid. The complainant was also concerned about pressures from upper
   management to inappropriately lower customer costs as a method of maintaining
   good customer relations and about potential violations of the voluntary services
   provision of the Anti-Deficiency Act or other laws.

   Audit Results. We substantiated that adjustments of 108,750 hours were made to
   the DFAS Indianapolis Network DBHs for FY 2001. We concluded that the
   substantiated adjustments were 13,250 hours less than the 122,000 hours
   contained in the allegation because resource management personnel were still in
   the process of making adjustments to the workcounts for DBHs when the
   allegation was submitted. There was a 108,750 hours difference between the
   direct productive hours totals in RADSS and the AWC system. The difference
   between the AWC system data and the RADSS data should only be work that
   DFAS Indianapolis Network personnel performed for DFAS. However, of the
   108,750 hours, only 24,813 hours were appropriate adjustments for work DFAS
   Indianapolis Network personnel performed for DFAS. The remaining balance of
   83,937 hours were inappropriate adjustments that primarily benefited the Army.

   The impact of the resource management decision to make the 83,937 hours of
   inappropriate adjustments was to improperly augment, through provision of free
   services, the FYs 2001 and 2002 appropriations that were supposed to fund the
   expense for accounting services. The General Accounting Office has generally
   distinguished between the improper augmentation of an appropriation through the
   direct receipt of money as opposed to through the receipt of services, analyzing
   the former under the augmentation prohibition (31 U.S.C. 1301[a]) and the latter
   under the voluntary services prohibition (31 U.S.C. 1342). Section 1342
   generally prohibits the acceptance of voluntary services or personal services
   exceeding that authorized by law. Case law draws a distinction between
   acceptance of “voluntary services” and “gratuitous services,” indicating that the
   prohibition in section 1342 is not aimed at gratuitous services, but rather is
   intended to prevent the acceptance of unauthorized voluntary services that are
   likely to afford a basis for a future claim of payment upon Congress or the
   Government. Because the issue involved gratuitous services rendered in an
   official capacity, and, therefore, could not have formed the basis for a future
   claim of payment upon Congress or the Government, the decision to make
   83,937 hours of inappropriate adjustments did not violate the voluntary services
   prohibition of the Anti-Deficiency Act (31 U.S.C. 1342). Also, the decision to
   write-off the FYs 2001 and 2002 suspended workcounts valued at $1.2 million
   did not violate the voluntary services prohibition of the Anti-Deficiency Act
   (31 U.S.C. 1342). For additional details, see finding B.


                                       20
Appendix C. Report Distribution
Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Joint Staff
Director, Joint Staff

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service
Director, Washington Headquarters Services

Non-Defense Federal Organization
Office of Management and Budget




                                          21
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        22
Defense Finance and Accounting Service
Comments




                      23
24
     Final Report
      Reference




     Revised
     Pages 13 and
     16




25
               Washington Headquarters Services Comments
Final Report
 Reference




Revised
Pages 11 and
12




                                   26
Department of the Army Comments




                    27
Under Secretary of Defense (Comptroller)/Chief
Financial Officer Comments




                      28
Team Members
The Defense Financial Auditing Service, Office of the Deputy Inspector General
for Auditing of the Department of Defense prepared this report. Personnel of the
Office of the Inspector General of the Department of Defense who contributed to
the report are listed below.

Paul J. Granetto
Richard B. Bird
M. Leon Peek
Carmelo G. Ventimiglia
Cheri D. Givan
Ryan N. Pike
Sarah A. Buelo
